Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of Medicaid Credit Balances at Boston Medical Center for the Period Ending March 31, 2007
July 8, 2008 | Audit A-01-07-00008
Executive Summary
Boston Medical Center's (the Hospital) accounting records for inpatient and outpatient services for Medicaid beneficiaries contained 645 overpayments totaling $198,000 ($99,000 Federal share) more than 60 days old that the Hospital should have returned to the Medicaid program in a timely manner.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS